                                                             O FFICE OF A UDIT S ERVICES , R EGION V
                                                                 233 N ORTH M ICHIGAN , S UITE 1360
                                                                                C HICAGO , IL 60601

April 20, 2012


TO:	             Francis S. Collins, M.D., Ph.D
                 Director
                 National Institutes of Health (NIH)


FROM:            /Sheri L. Fulcher/
                 Regional Inspector General
                   for Audit Services


SUBJECT:	 Northwestern University Claimed Allowable Costs Under a Recovery Act Grant
          (A-05-11-00106)


The attached final report provides the results of our review of Recovery Act Costs Claimed by
Northwestern University for NIH Grant Number RC1DK087126.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Mike Barton, Audit Manager, at (614) 469-2543 or through email at
Mike.Barton@oig.hhs.gov. Please refer to report number A-05-11-00106 in all correspondence.

Attachment
                                                              O FFICE OF A UDIT S ERVICES , R EGION V
                                                                  233 N ORTH M ICHIGAN , S UITE 1360
                                                                                 C HICAGO , IL 60601



April 20, 2012

Report Number: A-05-11-00106

Ingrid S. Stafford
Associate Vice President of Finance Operations and Treasurer
Northwestern University
619 Clark Street, Room 117
Evanston, IL 60208

Dear Ms. Stafford:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Northwestern University Claimed Allowable Costs Under a
Recovery Act Grant. We will forward a copy of this report to the HHS action official noted
below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-05-11-00106 in all correspondence.

                                                    Sincerely,


                                                    /Sheri L. Fulcher/
                                                    Regional Inspector General
                                                      for Audit Services


Enclosure
Page 2 – Ms. Ingrid S. Stafford


HHS Action Official:

Lorraine M. Trexler, Director
Division of Financial Advisory Services
OAMP, OALM
National Institutes of Health
6011 Executive Blvd. Room 549-C
Rockville, MD 20892-7663
Department of Health and Human Services
            OFFICE OF 

       INSPECTOR GENERAL 





  NORTHWESTERN UNIVERSITY 

  CLAIMED ALLOWABLE COSTS 

 UNDER A RECOVERY ACT GRANT





                       Daniel R. Levinson

                        Inspector General 


                           April 2012

                         A-05-11-00106

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                          Notices 



     THIS REPORT IS AVAILABLE TO THE PUBLIC
               at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires 

that OIG post its publicly available reports on the OIG Web site. 


OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as 

questionable, a recommendation for the disallowance of costs 

incurred or claimed, and any other conclusions and 

recommendations in this report represent the findings and 

opinions of OAS. Authorized officials of the HHS operating 

divisions will make final determination on these matters.

                                        INTRODUCTION 


BACKGROUND 


The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
on February 17, 2009, provided $8.2 billion to the Office of Director of the National Institutes of
Health (NIH) to help stimulate the economy through the support and advancement of scientific
research. Of the $8.2 billion, the Recovery Act transferred $7.4 billion to the NIH Institutes and
Centers and to the Common Fund. In addition, the Recovery Act provided $400 million for
comparative effectiveness research.

Recovery Act funds were used to award grants and cooperative agreements to research entities
including nonprofit and for-profit organizations, universities, hospitals, research foundations,
governments and their agencies, and occasionally individuals.

Federal Requirements for NIH Grantees

The regulations at 45 CFR Part 74 provide the uniform administrative requirements for awards
and subawards to institutions of higher education and other non-profit and commercial
organizations. Pursuant to 45 CFR §74.27, the allowability of costs incurred by institutions of
higher education are determined in accordance with the cost principles contained in 2 CFR pt.
220 (formerly Office of Management and Budget (OMB) Circular A-21), Cost Principles for
Educational Institutions.

NIH provides additional guidance through the National Institutes of Health Grants Policy
Statement (Grants Policy Statement). The Grants Policy Statement provides NIH grantees, in a
single document, the policy requirements that serve as the terms and conditions of NIH grant
awards. The Grants Policy Statement provides general information, application information, and
specifies the terms and conditions that apply to particular types of grants, grantees, and activities
that differ from, supplement, or elaborate on the standard terms and conditions.
Recovery Act Award to Northwestern University

Northwestern University (the grantee) is a private institution founded in 1851. NIH awarded the
grantee a Recovery Act grant in the amount of $997,581 for challenge grants in health and science
research. The grant budget period was September 25, 2009, through August 31, 2011; as of July
31, 2011, the grantee had claimed $854,884 ($570,561 direct costs and $284,283 indirect costs)
under the NIH grant.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether costs claimed by the grantee were allowable under the
terms of the grant and applicable Federal regulations.



                                                  1

Scope

We did not perform an overall assessment of the grantee’s internal control structure. Rather, we
limited our evaluation of the grantee’s accounting system to (1) obtaining an understanding of
internal control as it relates to the specific objective and scope of the audit, and (2) reviewing the
grantee’s financial audits performed by an independent auditor.

We limited our review to costs the grantee claimed for NIH grant RC1DK087126 during the
period September 25, 2009, through July 31, 2011. During the review period, the grantee
claimed $854,884. We reviewed $199,657 of the direct costs claimed by the grantee as of July
31, 2011.

We performed field work at the grantee’s administrative office in Evanston, Illinois in September
2011.

Methodology

To accomplish our objective, we:

       reviewed applicable Federal laws, regulations, and other guidance;

       reviewed grant announcements, grant applications, and notices of grant award;

       interviewed grantee officials;

       reviewed the grantee’s independent auditor’s reports and management letters for fiscal
        years 2009 and 2010;

       identified expended funds in the grantee’s accounting records as of July 31, 2011;

       summarized costs by cost category from expenditure reports;

       verified mathematical accuracy of the expenditure report;

       compared budgeted and actual expenditures;

       reviewed selected costs claimed under the grants for allowability.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                                  2

                                   RESULTS OF AUDIT


The $199,657 in grant costs covered by our review were allowable under the terms of the grant
and applicable Federal regulations.




                                               3

